Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    MEDICARE’S NATIONAL
  CORRECT CODING INITIATIVE




                   INSPECTOR GENERAL

                    SEPTEMBER 2003
                     OEI-03-02-00770
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
State Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                                          S U M M A R Y 




                              OBJECTIVE
                              To determine the extent to which Medicare paid for services that
                              should have been denied in 2001 based on the National Correct
                              Coding Initiative.


                              BACKGROUND
                              The Centers for Medicare & Medicaid Services (CMS)
                              administers the Medicare program which provides coverage of
                              reasonable and necessary health care services for the elderly
                              and disabled. CMS contracts with carriers nationwide to
                              process most Medicare Part B claims, which include those for
                              physician, radiology, and laboratory services. Medicare paid
                              $69 billion for Part B services in 2001.
                              In January 1996, CMS implemented the National Correct
                              Coding Initiative (CCI). This initiative was developed to
                              promote correct coding of health care services by providers and
                              to prevent Medicare payment for improperly coded services.
                              CCI consists of automated edits provided to the carriers to
                              evaluate claim submissions when a provider bills more than one
                              service for the same beneficiary on the same date of service.
                              CMS provides the carriers with two CCI edit files each quarter
                              along with instructions on when to apply them to their claims
                              processing systems. CCI edit files contain pairs of Healthcare
                              Common Procedure Coding System codes (i.e., code pairs) which
                              generally should not be billed together by a provider for the
                              same beneficiary on the same date of service. One CCI file
                              contains code pairs called comprehensive/component edits which
                              prevent payment for services which are components of a more
                              comprehensive procedure. When comprehensive and component
                              codes are billed together, Medicare pays for the comprehensive
                              code but not the component code. The second CCI file contains
                              code pairs called mutually exclusive edits which prevent
                              payment for services which cannot reasonably be performed
                              together. When mutually exclusive codes are billed together,
                              Medicare generally pays for the least costly code. Under certain
                              circumstances, a provider may include a modifier which would
                              allow both services in a comprehensive/component code pair or a
                              mutually exclusive code pair to be paid.

O E I - 03 - 02 - 0 0 7 7 0   ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   i
E   X   E      C      U       T       I   V   E         S       U      M       M       A       R      Y


                                              We matched CCI edits for the fourth quarter of 2001 against
                                              100 percent of 2001 Part B data from CMS’s National Claims
                                              History file to determine if services targeted by CCI edits were
                                              paid by Medicare. We also determined if any modifiers used
                                              were among those modifiers that could be used to bypass CCI
                                              edits. We calculated the number and percent of services that
                                              should have been denied based on CCI edits and the total
                                              Medicare payments associated with those services. As a case
                                              study, we requested information from one Medicare carrier on a
                                              sample of 100 services that should have been denied based on
                                              CCI edits to determine why the services were paid.


                                              FINDINGS
                                              We found that, overall, the Medicare carriers applied CCI edits.
                                              These edits prevented payment for 98 percent of services that
                                              should have been denied when a provider billed more than one
                                              service for the same beneficiary on the same date of service. Of
                                              the 2 percent of services that met the criteria for denial based on
                                              CCI edits, our analysis indicated that 70 percent of these
                                              services may have been paid appropriately if they involved
                                              adjusted payments. In these cases, the two services involving
                                              the CCI code pair were billed to the Medicare program on
                                              different days. Therefore, payments for both services may have
                                              been correct if payment for the second service was adjusted to
                                              account for the payment of the earlier service. Of a sample of
                                              100 services sent to one carrier, we found that nearly two-thirds
                                              were paid appropriately due to such adjustments.
                                              Nearly all of the services targeted by the National Correct
                                              Coding Initiative edits were paid appropriately in 2001. In
                                              2001, Medicare paid for 17.3 million services involving CCI code
                                              pairs billed by a provider for the same beneficiary on the same
                                              date of service. Of these services, 278,701 (1.6 percent) met the
                                              criteria for denial based on CCI edits but were paid by Medicare.
                                              These services represented $15.1 million in Medicare payments,
                                              or 1 percent of the $1.3 billion paid for services involving CCI
                                              code pairs billed by a provider for the same beneficiary on the
                                              same date of service.
                                              However, 70 percent of the paid services that met the criteria for
                                              denial based on CCI edits may have been paid correctly due to
                                              adjustments. In these cases, the two services involving the CCI

        O E I - 03 - 02 - 0 0 7 7 0           ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   ii
E   X   E      C      U       T       I   V   E         S       U      M       M       A       R      Y


                                              code pairs were billed to the Medicare program on different
                                              days. Therefore, payments for both services may have been
                                              correct if payment for the second service was adjusted to account
                                              for the payment of the earlier service. Only a manual review of
                                              claims history data could determine if the services were paid
                                              appropriately due to adjustments. Results from a sample of
                                              100 questionable services sent to one carrier for review showed
                                              that this was the reason nearly two-thirds of the services were
                                              paid. The remaining one-third of the sample services were paid
                                              primarily due to a system error.


                                              CONCLUSION
                                              The automated National Correct Coding Initiative appears to
                                              effectively prevent Medicare payments for nearly all services
                                              that meet the criteria for denial based on the CCI edits.
                                              Medicare carriers are processing their claims with CCI edits and
                                              the edits prevented payment for at least 98 percent of the
                                              targeted services.
                                              We provided CMS with our data on the small percentage of
                                              services that met the criteria for denial based on CCI edits. In
                                              the future, CMS may want to replicate our analysis to determine
                                              whether services continue to be paid in accordance with CCI
                                              edits.




        O E I - 03 - 02 - 0 0 7 7 0           ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   iii
T A B L E                       O F                   C O N T E N T S 




                     EXECUTIVE SUMMARY ..................................................................i




                     INTRODUCTION ........................................................................... 1




                     FINDINGS

                              Services targeted by CCI paid appropriately……………………………6



                     CONCLUSION.............................................................................. 9



                     ACKNOWLEDGMENTS ................................................................ 10





O E I - 03 - 02 - 0 0 7 7 0     ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   iv

I N T R O D U C T I O N 




                              OBJECTIVE
                              To determine the extent to which Medicare paid for services that
                              should have been denied in 2001 based on the National Correct
                              Coding Initiative.


                              BACKGROUND
                              The Medicare program provides coverage of reasonable and
                              necessary health care services for the elderly and disabled. The
                              program is administered by the Centers for Medicare &
                              Medicaid Services (CMS). CMS contracts with carriers
                              nationwide to process most Medicare Part B claims, which
                              include physician, radiology, and laboratory services. Medicare
                              paid $69 billion for Part B services in 2001.
                              Medicare providers use the Healthcare Common Procedure
                              Coding System (HCPCS) to bill for services provided to Medicare
                              beneficiaries. The HCPCS consists of three levels of codes.
                              Level I codes are those from the American Medical Association’s
                              Current Procedural Terminology (CPT) Manual used for
                              reporting services performed by health care providers. Level II
                              codes are alpha-numeric codes for medical services and supplies
                              not included in the CPT Manual. Level III codes are local
                              carrier codes used to describe new procedures that do not yet
                              have a Level I or II code.
                              National Correct Coding Initiative
                              In January 1996, CMS implemented the Na tional Correct
                              Coding Initiative (CCI). This initiative was developed to
                              promote correct coding by providers and to prevent Medicare
                              payment for improperly coded services. CCI consists of
                              automated edits provided to the carriers to evaluate claim
                              submissions when a provider bills more than one service for the
                              same beneficiary on the same date of service. CCI edits include
                              Level I and Level II HCPCS codes. The edits are updated
                              quarterly based on changes in the CPT Manual, current
                              standards of medical and surgical practice, input from specialty
                              societies, and analysis of current coding practice. CMS works
                              with Reliance Safeguard Systems and AdminaStar Federal to
                              propose and maintain CCI edits with input from national
                              medical societies, carriers, and providers. CMS contracts with


O E I - 03 - 02 - 0 0 7 7 0   ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   1
I   N   T    R       O      D         U   C   T    I     O      N


                                              the National Technical Information Service, within the
                                              Department of Commerce, to produce the National Correct
                                              Coding Policy Manual for Part B Carriers for purchase by
                                              providers. This manual is also distributed to carriers through
                                              CMS’s regional offices.
                                              National Correct Coding Initiative Edits
                                              CCI edit files contain pairs of HCPCS codes (i.e., code pairs)
                                              which generally should not be billed together by a provider for
                                              the same beneficiary on the same date of service. CMS provides
                                              the carriers with two CCI edit files each quarter along with
                                              instructions on when to apply them to their claims processing
                                              systems. In the fourth quarter of 2001, CCI edit files contained
                                              199,942 code pairs.

                                              One CCI file contains code pairs called comprehensive/
                                              component edits which prevent payment for services that are
                                              components of a more comprehensive procedure. In the fourth
                                              quarter of 2001, this file contained 186,353 comprehensive/
                                              component code pairs. When comprehensive and component
                                              codes are billed together, Medicare pays for the comprehensive
                                              code but not the component code. For example, if an infusion
                                              procedure is performed, the placement of the catheter should not
                                              be billed separately. In this example, the placement of the
                                              catheter is considered a component of the infusion procedure.
                                              According to the CCI edit, if a provider bills for both of these
                                              services for the same beneficiary and date of service, only the
                                              comprehensive code for the infusion procedure will be paid.
                                              The second CCI file contains code pairs called mutually
                                              exclusive edits which prevent payment for services that cannot
                                              reasonably be performed together. In the fourth quarter of
                                              2001, this file contained 13,589 mutually exclusive code pairs.
                                              When mutually exclusive codes are billed together, Medicare
                                              generally pays for the least costly code. For example, a certain
                                              anesthesia procedure can be performed either with a pump
                                              oxygenator or without a pump oxygenator, but not both. If a
                                              provider bills for both of these services for the same beneficiary
                                              and date of service, only the procedure performed without the
                                              pump oxygenator will be paid.




        O E I - 03 - 02 - 0 0 7 7 0           ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   2
I   N   T    R       O      D         U   C   T    I     O      N



                                              Modifiers
                                              Under certain circumstances, a provider may include a modifier
                                              which would allow both services in a comprehensive/component
                                              code pair or a mutually exclusive code pair to be paid. A
                                              modifier is a two-digit code that further describes the service
                                              performed. For example, if two procedures in a code pair were
                                              performed at different times on the same day, a modifier could
                                              be appended to one of the codes to indicate that it was a
                                              separate service. Each of the CCI code pairs has a modifier
                                              indicator that determines whether a modifier can be used. A
                                              modifier indicator of “1” specifies that a modifier may be used to
                                              bypass the CCI edit for that code pair. A modifier indicator of
                                              “0” specifies that a modifier may not be used with that code pair
                                              to bypass the CCI edit. A modifier indicator of “9” specifies that
                                              the edit was retroactively deleted and is no longer in use. Only
                                              35 modifiers may be used to bypass CCI edits.


                                              METHODOLOGY
                                              National Correct Coding Initiative Edits
                                              We obtained CMS’s mainframe data files containing CCI edits
                                              for the fourth quarter of 2001. The fourth quarter CCI edit
                                              update includes all prior additions and deletions of code pairs
                                              through the end of 2001. Since we were reviewing 2001 data, we
                                              removed all CCI edits with deletion dates prior to 2001 as well
                                              as CCI edits that were retroactively deleted during 2001. This
                                              left 123,316 CCI code pairs for our review. CCI edits are
                                              arranged so that the second code in a code pair is the code that
                                              should be denied.
                                              Medicare Part B Claims Data
                                              We matched CCI edits against 100 percent of 2001 Part B
                                              claims data from CMS’s National Claims History file, which
                                              included over 1 billion claim lines. We will refer to claim lines
                                              as services throughout this report. From this file, we identified
                                              services that involved active CCI code pairs billed by a provider
                                              for the same beneficiary on the same date of service. To
                                              determine if any of these services should have been denied
                                              based on CCI edits, we compared the date of the service with an
                                              edit’s effective and deleted dates. This enabled us to determine
                                              whether the edit was in place on the date the services were


        O E I - 03 - 02 - 0 0 7 7 0           ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   3
I   N   T    R       O      D         U   C   T    I     O      N


                                              performed. We identified 17.3 million services that involved
                                              active CCI code pairs billed by a provider for the same
                                              beneficiary on the same date of service. Medicare paid
                                              $1.3 billion for these services in 2001.
                                              Modifiers and Modifier Indicators
                                              Since we used the CCI edit update from the fourth quarter of
                                              2001, we also obtained the modifier indicator change lists for
                                              each quarter of 2001 and the first 2 quarters of 2002. This was
                                              necessary because when a change is made to a modifier
                                              indicator only, the effective date of the edit remains the same.
                                              Since a modifier indicator for a code pair could have changed
                                              over the year, we used these lists to determine if a modifier was
                                              permitted or not permitted when the claims were processed.

                                              For code pairs that may be billed with a modifier, we evaluated
                                              whether any modifiers included with those code pairs were
                                              among the 35 modifiers that may be used to bypass CCI edits. If
                                              an appropriate modifier was included with these code pairs,
                                              payment for both services would be permitted. We did not
                                              request documentation to verify whether the two separate
                                              services, indicated by the modifier, were actually performed.
                                              Payments that Met the Criteria for Denial Based on CCI Edits
                                              Payment for the second code in a CCI code pair met the criteria
                                              for denial, based on the automated CCI edits, in the following
                                              circumstances:

                                                       o	 The code pair did not permit a modifier, regardless of
                                                          whether a modifier was included.
                                                       o	 The code pair permitted a modifier, but the modifier used
                                                          was not one of the 35 modifiers that may be used to
                                                          bypass CCI edits.
                                                       o	 The code pair permitted a modifier, but a modifier was
                                                          not included.
                                              We calculated the number and percent of services that should
                                              have been denied based on CCI edits and the total Medicare
                                              payments associated with those services. We also reviewed this
                                              data to determine whether payments were made by particular
                                              carriers or for particular code pairs.




        O E I - 03 - 02 - 0 0 7 7 0           ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   4
I   N   T    R       O      D         U   C   T    I     O      N


                                              Carrier Case Study
                                              We requested information from one Medicare carrier to
                                              determine if there were reasons why some services were paid
                                              when they should have been denied based on the automated CCI
                                              edits. For this carrier, we randomly selected 100 services that
                                              we had determined should not have been paid based on CCI
                                              edits. We asked the carrier to explain why the services were
                                              paid and to submit documentation to support payment of each of
                                              the services.




        O E I - 03 - 02 - 0 0 7 7 0           ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   5
F I N D I N G S 



                               We matched the National Correct Coding Initiative (CCI) edits
                               for 2001 against 100 percent of 2001 Part B claims. Medicare
                               carriers are required to apply these edits to the Part B services
                               they process for payment. CCI edits promote correct coding by
                               providers and prevent Medicare payments for improperly coded
                               services. We found that, overall, the carriers applied these
                               edits. The edits prevented payment for 98 percent of services
                               that should have been denied when billed by a provider for the
                               same beneficiary on the same date of service. Less than 2
                               percent of services targeted by CCI edits were paid by Medicare
                               in 2001. These services represented $15.1 million in Medicare
                               payments. Our analysis indicated that 70 percent of these
                               services may have been paid correctly due to adjustments made
                               to the payment for one of the services. We submitted a sample
                               of 100 services that met the criteria for denial to one carrier for
                               review. The carrier reported that adjustments were made to the
                               payments for nearly two-thirds of the services in our sample so
                               that these services were paid correctly.


                               FINDINGS
                                                                In 2001, Medicare paid for
                 Nearly all of the services targeted by
                                                                17.3 million services
               the National Correct Coding Initiative           involving CCI code pairs
               edits were paid appropriately in 2001.           billed by a provider for the
                                                                same beneficiary on the same
                           date of service. Of these services, nearly 17 million were
                           processed and paid appropriately. We found 278,701 services
                           (1.6 percent) that met the criteria for denial based on CCI edits
                           but were still paid by Medicare. These services represented
                           $15.1 million in Medicare payments, or 1 percent of the
                           $1.3 billion paid for services involving CCI code pairs billed by a
                           provider for the same beneficiary on the same date of service.
                               However, our data indicated that 70 percent of the 278,701 paid
                               services targeted by CCI edits may have been paid correctly.
                               Both services in these CCI code pairs were billed to the
                               Medicare program on different days. In these instances, both
                               payments may have been correct if the second payment was
                               adjusted to account for the first. For example, if the component
                               code in a code pair was billed and paid and then the
                               comprehensive code was billed later, the comprehensive code

 O E I - 03 - 02 - 0 0 7 7 0   ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   6
F   I   N    D       I    N       G   S


                                          may have been paid appropriately if the payment was adjusted
                                          to take into account the payment already made for the
                                          component code. To further illustrate, if the component code
                                          was billed and $20 was paid for it, and later the comprehensive
                                          code was billed, both payments would be appropriate if the
                                          payment for the comprehensive code was reduced by the $20
                                          paid for the component code. Our analysis identified the second
                                          code in these code pairs as services that should have been
                                          denied when we matched CCI edits against Part B claims data
                                          because both services were paid. Only a manual review of
                                          claims history data could confirm that they were paid
                                          appropriately due to adjustments.
                                          We analyzed the services that met the criteria for denial based
                                          on CCI edits to identify any common characteristics among
                                          these services. Of the services that met the criteria for denial
                                          based on CCI edits, 33 percent were paid with a modifier that
                                          may not be used to bypass CCI edits. Also, while some CCI code
                                          pairs were paid more frequently than others, no individual code
                                          pair represented a considerable portion of the questionable
                                          services. The code pair that bypassed CCI edits most
                                          frequently, which was made up of two radiology codes,
                                          represented 3 percent of services and less than 1 percent of
                                          payments that should have been denied. All the Medicare
                                          carriers made some payments for services that should have been
                                          denied based on CCI edits. Of these services, none of the
                                          carriers paid a percentage that was substantially higher than
                                          the percentage of services involving CCI edit pairs that they
                                          processed overall.
                                          Results of a Case Study of One Carrier
                                          To determine why some questionable services were paid, we sent
                                          a random sample of 100 services that we determined should
                                          have been denied based on the automated CCI edits to one
                                          carrier. We asked the carrier to explain the reason the services
                                          were paid. We found that, of the 100 services that we sent to
                                          the carrier, 69 were paid or denied correctly. Sixty-four services
                                          were paid correctly since the second code in the CCI code pair
                                          was billed and paid before the first code. In these cases, the
                                          carrier reported that they either requested a refund of the
                                          payment for the second code or reduced the amount paid for the
                                          first code.


        O E I - 03 - 02 - 0 0 7 7 0       ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   7
F   I   N    D       I    N       G   S




                                          The carrier’s data showed that an additional five services that
                                          we determined were paid incorrectly, were in fact denied. These
                                          services may have been adjusted after CMS’s data for 2001 was
                                          finalized, as all but one of these services were initially processed
                                          late in 2001 or early 2002. Since our data only included
                                          adjustments made through June 2002, a later adjustment which
                                          denied the claim may not have appeared in our data.
                                          Approximately one-third of the sample services were paid by the
                                          carrier, but should have been denied. Twenty-seven services
                                          were paid due to a system error. For these 27 services, the
                                          carrier paid for both services in a CCI code pair when a modifier
                                          was used even though a modifier was not permitted with the
                                          code pair according to the CCI. The carrier reported that they
                                          plan to contact CMS and take any corrective actions necessary.
                                          Another four services were paid incorrectly due to human error.
                                          The carrier had manually reviewed these services and made
                                          erroneous payments based on these manual reviews.




        O E I - 03 - 02 - 0 0 7 7 0       ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   8
C O N C L U S I O N 




                              CONCLUSION
                              The automated National Correct Coding Initiative appears to
                              effectively prevent Medicare payments for nearly all services
                              that meet the criteria for denial based on the CCI edits.
                              Medicare carriers are processing their claims with CCI edits and
                              the edits prevented payment for at least 98 percent of the
                              targeted services.
                              We provided CMS with our data on the small percentage of
                              services that met the criteria for denial based on CCI edits. In
                              the future, CMS may want to replicate our analysis to determine
                              whether services continue to be paid in accordance with CCI
                              edits.




O E I - 03 - 02 - 0 0 7 7 0   ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   9
 A C K N O W L E D G M E N T S 




                                 This report was prepared under the direction of Robert A. Vito,
                                 Regional Inspector General for Evaluation and Inspections in
                                 the Philadelphia Regional Office and Linda M. Ragone, Deputy
                                 Regional Inspector General. Other principal Office of
                                 Evaluation and Inspections staff who contributed include:

                                 Tara Bernabe, Team Leader

                                 Nancy J. Molyneaux, Program Analyst

                                 Cortney Hayflinger, Program Analyst

                                 Stephanie London, Program Specialist

                                 Tricia Davis, Director, Medicare and Medicaid Branch



                                 Technical Assistance
                                 Scott Horning, Program Analyst

                                 Barbara Tedesco, Mathematical Statistician 





                        For information or copies of this report, please contact

                                  the Office of Inspector General’s

                                Public Affairs office at (202) 619-1343.


Reports are also available on the World Wide Web at our home page address:
                           http://www.oig.hhs.gov/




 O E I - 03 - 02 - 0 0 7 7 0     ME D I C A R E ’ S NA T I O N A L C O R R E C T C O D I N G I N I T I A T I V E   10
